                                            -
                                                                                             I



                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS                -.
                                                     CLOSEOUT MEMORANDUM

 Case Number: I02020005                                                                            Page 1 of 1



          An institution' refhnded $56,676 to NSF because of "irregularities" on a grant.2 NSFIOIG
          learned that the institution had determined the co-principal investigator (~ubject)~
                                                                                            on the NSF
          grant embezzled money by submitting falsified expense vouchers. After reviewing all financial
          documentation related to the project and interviewing everyone involved, including the subject,
          NSFIOIG determined that the subject had embezzled at least $214,000 of NSF and other funds.

          The subject pled guilty to one count of violation of 18 U.S.C. 666 (Theft or bribery concerning
          programs receiving Federal funds); the Plea Agreement and Information are attached. He was
          sentenced to one-year of imprisonment followed by two years supervised release, and ordered to
          pay $93,053 in restitution to the government; the Judgment and commitment is attached. NSF
          debarred the subject for a period of three years. Accordingly, this case is closed.




          ' The Carnegle Institution of Washington
          2
              NSF grant ESI-9353462 entitled "Carnegle Academy for Science and Education (CASE)"
              Charles Clinton James



i S F OIG Form 2 (1 1102)
                         UNITED STATES DISTRICT COURT
                      FOR THE EASTERN DISTRICT OF VIRGINIA
                              ALEXANDRIA DMSION

UNITED STATES OF AMERICA                   1
                                           1
     Plaintiff,                            1
                                           1
v.                                         ) Criminal No. 03-
                                           1
CHARLES C. JAMES                           1
                                           1
     Defendant.                            1

                                      INFORMATION

THE UNITED STATES ATTORNEY CHARGES:

     At all times material herein:

                                      INTRODUCTION

1.   Defendant CHAIUES C. JAMES was a natural person residing in Arlington, Virginia.

2.   The CARNEGIE INSTITUTION OF WASHINGTON (CIW) was a private, nonprofit

     organization in Washington, D.C., engaged in basic research and education in biology,

     astronomy, and the earth sciences.

3.   The NATIONAL SCIENCE FOUNDATION @SF) was an independent federal agency that
                                                             <+.'.-.'
     promoted science and engineering through programs that Invested over $4.7 billion per year

     in almost 20,000 research and education projects, including almost $900 million for projects

     directed to science education.

4.   In 1993, CIW received a 5-year $3.8 million grant fiom NSF, pursuant to which CIW
                                                        /'



     received more than $10,000 for each one year period, for a project called the Carnegie
        Academy for Science Education (CASE), under the direction of a Principal Investigator (PI)

        and two Co-PIS,one of whom was, CHARLES C. JAMES.

                                           COUNT ONE

                (Theft fiom a Program Receiving Federal Funds, 18 U.S.C.      5 666)
5.     The allegations set forth in paragraphs 1 through 4 are realleged as if set forth fully herein.

6.     From on or about July, 1994 through on or about September, 1999, in the Eastern District of

       Virginia and elsewhere, CHARLES C. JAMES, being an agent of Carnegie Institute of

       Washington, an organizationthat received more than $10,000 in federal grant fundsfor each

       one year period, did embezzle, steal, obtain by h u d , and otherwise without authority

       knowingly convert to his use property valued at $202,000, consisting of more than$5,000 for

       each one year period, that was owned by, and under the care, custody, and control of

       Carnegie Institute of Washington, under a Federal program involving a Federal grant,in that

       JAMES caused false charges to be made to Carnegie Institute of Washington accountsfor the

       CASE project supported under an NSF grant,for items of personal use and for payment of

       salary for time in excess of that actually worked.

All in violation of Title 18, United States Code, !j 666.

                                                                                   Paul J. McNulty
                                                                             United States Attorney

                                                                   I
                                                                                   luP,           w7
                                                                               Peter B. Lobwedberg

                                                                        U.S. Department of ust ti&
                                                                  loth & Constitution Avenue, NW
                                                                       Bond Building, Room 4418
                                                                  Criminal Division, Fraud Section
                                                                           Washington, DC 20530
                                                                                     202-5 14-0840
                                                                                         FlL EC
                                                                                           - --.-
                           W T E D STATES DISTRICT COURT
                        FOR THE EASTERN DISTRICT OF V I R G N A                    JUL 1 7 2003
                                A L E X A N n U DMSION


UNITED STATES OF AMERICA                      )

       Plaintiff,
v.                                                      Criminal No. 03-   s b /A
CHARLES C. JAMES                              )
                                              )
       Defendant.                             )
                                             J
                                PLEA AGREEMENT
       The United States of America (specifically the United States Attorney's office for the

Eastern District of Virginia and the Fraud Section, Criminal Division, of the Department of Justice),

and CHARLES C. JAMES (hereinafter referred to as the "defendant") enter into the following

agreement:

       1. The defendant agrees to plead guilty to a one count information which charges that fiom

1994 through 1999, CHARLES C. JAMES, being an agent of Camegie Institute of Washington

(CIW), an organization that received more than $2 million in federal grant funds each year, did

embezzle, steal, obtain by fraud, or otherwise without authority knowingly convert to his use

property valued at more than $200,000 that was owned by, or under the care, custody, or control of,

CIW under a Federal program involving a Federal grant, in violation of Title 18, United States Code,

Section 666.

       2. The defendant agrees to waive indictment by a grand jury and agrees to plead guilty to the

Information.

       3. The defendant is aware that the sentence will be imposed in conformity with the Federal

Sentencing Guidelines and Policy Statements (hereinafter "Sentencing Guidelines"), and that the
applicable guidelines will be determined by the Court relying in part on the results of aPre-Sentence

Investigation by the Court's Probation Office, which investigation will commence after the guilty

plea has been entered. The defendant is also aware that, under certain circumstances,the Court may

depart from the applicable guideline range and impose a sentence that is either more severe or less

severe than the guideline range. Knowing these facts, the defendant understands and acknowledges

that the Court has the authority to impose any sentence within and up to the statutory maximum

authorized by law for the offense identified in paragraph 1 and that the defendant may not withdraw

the plea solely as a result of the sentence imposed.

       4. The defendant also understands and acknowledges that the Court may impose a statutory

maximum term of imprisonment of up to Ten (10) years, followed by a term of supervised release.

In addition to a term of imprisonment and supervised release, the Court may impose a fine of up to

twice the gross gain derived from the offense, twice the gross loss resulting from the offense, or

$250,000, whichever is greater, and shall order restitution.

        5. The defendant further understands and acknowledges that, in addition to any sentence

imposed under paragraph 4 of this agreement, a special assessment in the amount of $100 will be

imposed on the defendant. The defendant agrees that any special assessment imposed shall be paid

at the time of sentencing.

        6. The United States reserves the right to inform the Court and the Probation Office of all

facts pertinent to the sentencing process, including all relevant information concerning the offenses

committed, whether charged or not, as well as concerning the defendant and the defendant's

background. Subject only to the express terms of any agreed-upon sentencing recommendations

contained in this agreement, the United States furtherreserves the right to make any recommendation
as to the quality and quantity of punishment.

       7. The United States agrees that it will recommend at sentencing that the Court reduce by

three levels the sentencing guideline level applicable to the defendant's offense, pursuant to Section

3E1.1 of the Sentencing Guidelines, based upon the defendant's recognition and affirmative and

timely acceptance of personal responsibility. However, the United States will not be required to

make this sentencing recommendation if the defendant: (1) fails or refuses to make a fill, accurate

and complete disclosure to the Probation Office and the United States of the circumstances

surrounding the relevant offense conduct and his present financial condition; or (2) commits any

misconduct afier entering into this plea agreement, including but not limited to committing a state

or federal offense, violating any term of release, or making a false statement or misrepresentation

to any governmental entity or official.

        8. The United States and the defendant agree that, although not binding on the Probation

Office or the Court, they will jointly recommend that the Court make the following findings and

conclusions in paragraphs 8a and 8 b as to the sentence to be imposed:

               a. Loss: That the relevant amount of actual, probable or intended loss under Section

               2F1.1(b)(l) of the SentencingGuidelines resulting fiom the offense committed in this

               case is more than $200,000, but no more than $350,000;

               b. Restitution: It is the position of the Fraud Section that the restitution due is

                $202,000 and that the Defendant has paid restitution totaling $108,497.

        9. The defendant is aware that the sentence has not yet been determined by the Court. The

defendant also is aware that any estimate of the probable sentencing range or sentence that the

defendant may receive, whether that estimate comes from the defendant's attorney, the government,
or the Probation Office, is a prediction, not a promise, and is not binding on the United States, the

Probation Office or the Court. The defendant understands further that any recommendation that the

government makes to the Court as to sentencing, whether pursuant to this agreement or otherwise,

is not binding on the Court and the Court may disregard the recommendation in its entirety. The

defendant understands and acknowledges, as previously acknowledged in paragraph 3 above, that

the defendant may not withdraw his plea based upon the Court's decision not to accept a sentencing

recommendation made by the defendant, the government, or a recommendationjointly made by both

the defendant and the government.

        10.    The United States reserves the right to evaluate the nature and extent of the

defendant's cooperation and to make the defendant's cooperation, or lack thereof, known to the

Court at the time of sentencing.

        11. Defendant is aware that Title 18, Section 3742 affords a defendant the right to appeal the

sentence imposed. The defendant knowingly waives the right to appeal any sentence within the

maximum provided by the statute of conviction (or the manner in which that sentence was

determined) on the grounds set forth in Title 18, United States Code 3742 or on any ground

whatever, in exchange for the concessions made by the United States in this plea agreement. This

agreement does not affect the rights of obligations ofthe United States as set forth in Title 18,United

States Code, Section 3742 (b).

        12. In consideration for the defendant pleading guilty, the United States agrees that it will

not further prosecute the defendant for other offenses that were the subject of the investigation,i.e.,

embezzlement of funds and illegal conversion of property in the care of Carnegie Institution of

Washington. The defendant acknowledges that no representations have been made to him with
respect to any civil or administrative consequences that may result from this plea of guilty, because

such matters are solely w i t h the discretion of the specific administrative or governmental entity

involved and that the undersigned parties cannot bind any other federal, state, or local authority.

        13.    This Agreement is limited to the undersigned parties and cannot bind any other

federal authority, or any state or local authority. The United States agrees, however, to advise any

other federal, state or local authority of the defendant's cooperation at the defendant's request. This

Agreement applies only to crimes committed by defendant. This Agreement does not apply to any

civil, administrative or forfeiture proceedings, and shall not preclude any past, present, or future

civil, administrativeor forfeiture actions. Finally, the defendant acknowledges that this Agreement

has been reached without regard to any tax matters that may be pending or which may arise involving

him and that he may be prosecuted civilly or criminally for income tax violations.

        14. This is the entire agreement and understanding between the United States and the

defendant. There are no other agreements, promises, representations, or understandings.

                                                               Respectfully Submitted,



                                                               Kirby Behre
                                                               Counsel for Defendant
U.S. Department of Justice
10th & Constitution Avenue, NW
Criminal Division, Fraud Section
Bond Building - Rm. 441 8
Washington, D.C. 20530
(202)-5 14-0340; FACSIMILE: (202) 5 14-7021

Date:M               3                                         Date:   7/:7/d7           '
APPROVE
JUSTIN W.
CHIEF, CRIMINAL, DIVISION
UNTIED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT OF VIRGINIA



        I have read this Agreement and carehlly reviewed every part of it with my attorney. I
understand it, and I voluntarily agree to it. Further, I have consulted with my attorney and hlly
understand my rights with respect to the provisions of the Sentencing Guidelines which may apply
to my case. No other promises or inducements have been made to me, other than those contained
in this Agreement. In addition, no one has threatened or forced me in any way to enter into this
Agreement. Finally, I am satisfied with the representation by my attorney in this matter.


                                          Date:    71,?/05
CHARLES C. JAMES
Defendant


              I am Kirby Behre. I have carehlly reviewed every part of this Agreement with my

client. Further, I have reviewed with my client the provisions of the Sentencing Guidelines which

may apply to t h s case. -Tomy knowledge, my client's decision to enter into this Agreement is an

informed and voluntary one.



                                        Date:   h
                                                177
KIRBY BEHRE
Counsel for Defendant
                                                  ' /
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VlRGIlWA
ALEXANDRIA DIVISION


UNITED STATES OF AMERICA                    )
                                            )
       Plaintiff,                           )
v.                                          )          Criminal No. 0 3 - 30    .,p(
                                            )
CHARLES C. JAMES

       Defendant.



                                 STATEMENT OF FACTS

       If this matter were to go to trial, the United States would prove beyond a reasonable doubt

the following:

1.     The National Science Foundation (NSF), located in Arlington, Virginia, is an independent

federal agency that promotes science and engineering through programs that invest over $4.7

billion per year in almost 20,000 research and education projects, including almost $900 million

for projects directed to science education. Within NSF, the Directorate for Education and

Human Resources (EHR) is responsible for the health and continued vitality of the Nation's

science, mathematics, engineering, and technology education and for providing leadership in the

effort to improve education in these areas -- and within EHR, the Division of Elementary,

Secondary, and Informal Education (ESIE) focuses on pre-kindergarten through 12th-grade

science, technology, engineering, and mathematics education.

2.     The Camegie Institution of Washington (CIW) is a private, nonprofit organization in

Washington, D.C., engaged in basic research and education in biology, astronomy, and the earth

sciences. CIW was founded by Andrew Camegie in 1902 and incorporated by Act of Congress
in 1904. In 1993, CIW submitted a proposal to ESIE's Teacher Enhancement program, to create

the Carnegie Academy for Science Education (CASE). The CASE program was designed to

increase D.C. public school teachers' knowledge of science and present new methods of bringing

science to their students.

3.     NSF awarded a 5-year $3.8 million grant (the NSF Grant) to CIW for the CASE project,

under the direction of a Principal Investigator (PI) and two Co-PIS, one of whom was CHARLES

C. JAMES. CIW also used funds fiom other sources in support of the CASE project.

4.     The NSF Grant included an allocation for indirect costs at the rate of 27% of all direct

charges to the Grant. If an item was purchased for the CASE project for $100 and it was charged

to the NSF Grant account, an additional $27 was allocable fiom the NSF Grant funds to cover

CIW's indirect costs, thereby totaling $127 of the NSF Grant funds. The NSF Grant also allowed

for fringe benefits to be charged for salary payments at a rate of 28.5%. If a CTW employee was

paid $100 for work on the CASE project and that salary was charged to the NSF Grant account,

(1) first, an additional $28.50 was allocable fiom the NSF Grant funds to cover fringe benefits,

totaling $128.50 of the NSF Grant funds that would be used to pay this cost, and then (2) an

additional $34.70 (27% of $128.50) was allocable fiom the NSF Grant funds to cover CIW7s

indirect costs, totaling $163.20 of NSF Grant funds.

5.      In his role as Co-PI on the CASE project, JAMES was authorized to make purchases of

educational materials. Starting in about July 1994, JAMES submitted "Request for Check"

forms to purchase items for his personal use and facilitated payment fiom the NSF Grant account

and other privately funded accounts by submitting CIW forms on which he identified the

purchases as CASE-related. In 1997 JAMES was issued a credit card by CIW for purchases of

educational materials, and thereafter he submitted similar paperwork to CIW to facilitate
payment of the credit card bill. If the items purchased were of a type that were plausibly CASE-

related (such as science-related children's books), he identified them accurately on the

reimbursement form (though he would not disclose that he had taken the items to his home). On

four occasions, JAMES fabricated false invoices/receipts to attach to the CIW forms; at other

times, he attached the actual receipts but wrote false information on the reimbursement forms to

obscure the nature of the personal purchases. By this means, JAMES routinely charged the NSF

Grant account and other CASE-related accounts for a wide range of personal purchases. A few

examples are:

- Groceries: Numerous times at stores such as Fresh Fields, Lee Supermarket, Safeway, etc.

- Garden supplies and hardware: Numerous times at stores such as Morning Glory Farm,

Arlington Hardware, Home Depot, etc. A notable purchase was 90 bags of mulch fiom

Arlington Hardware for $481.82, delivered to his home, which JAMES falsely designated on the

CIW reimbursement form as "90 thermometers."

- Clothing and jewelry for his wife from Gazelle, a boutique in Chevy Chase that sells "wearable

art and fine American crafts": 11 times. A notable purchase occurred before CIW issued the

credit card to him, when JAMES submitted a fabricated invoice fiom Gazelle to CIW for " 12 .

Lobster Breeding Aquarium Sets" and requested a check payable to Gazelle for $2,655

(which the invoice stated included a $250 "discount"); when he obtained the check he used it to

purchase a diamond bracelet for his wife.

- Toys, clothing, and furniture for his children: Numerous times at stores such as Full of Beans,

One Two Kangaroo Toys; Zany Brainy, etc. A notable purchase was a children's bedroom set

from Baby-2-Teen Furniture for $1,063.78, for which JAMES fabricated an invoice for the

purchase of " 10
Rubbermaid 200 lb. Shelf units with 7 extra shelves."

- Furniture and collectibles: Numerous times at a wide variety of locations. Notable examples:

Church pews purchased for $140 fiom an antique store, which JAMES falsely designated on the

CIW reimbursement form as "playground benches" (which never arrived at the playground). A

frog sculpture carved fiom ruby zoicite and a fossil sperm whale tooth purchased fiom a

Georgetown store called Fire And Ice for $714, for which JAMES fabricated a receipt

for a "Fire Mineral Collection." A marble chess set purchased for $150, which JAMES falsely

designated on the CIW reimbursement form as "mineral specimens."

- Pet supplies: Numerous times at Companion's Pet Shop and PetCo.

All of the above referenced purchases were subsequently reimbursed by NSF Grant funds and

private funds due to JAMES' deception.

6.     CIW hired JAMES' wife to work on the CASE project in 1995. She was employed part

time, paid for the hours worked at a rate of $31.25/hour based on a hand-written time sheet

submitted twice each month. JAMES'S wife never actually filled out her time sheets herself -

instead, JAMES filled them out, signed his wife's name, and submitted them to CIW. On 61

timesheets he prepared, signed, and submitted fiom February 1995 to October 1997, JAMES

exaggerated the hours worked by his wife on the CASE project, resulting in fraudulent charges

to the NSF Grant account as well as other CIW CASE accounts.

7.     All of the money received by JAMES as a result of his scheme to defiaud CIW was

deposited in a bank account located in Arlington, Virginia, within the Eastern District of

Virginia. Moreover, all of the items that were fraudulently purchased by JAMES for his personal

use were brought to his home in Arlington, Virginia, located within the Eastern District of

Virginia.
8.     In about September, 1999, CIW discovered a significant portion, but not all of JAMES'S

fraudulent purchases. After a limited review, ClW estimated that the amount of fraudulent

purchases totaled approximately $108,497, of which approximately $56,676 was allocable to the

NSF Grant account (including charges for indirect costs). CIW repaid $56,676 to NSF and

required JAMES to repay the money, with some being paid immediately and the remainder

deducted in small portions from his salary. Thus far, JAMES has repaid $108,497 to CIW.

9.     Investigation by the NSF Office of Inspector General found that CIW's estimate of the

extent of the fraud was low. JAMES cooperated with NSF7sinvestigation by participating in

four days of meetings to quantify the amount of the loss using a different methodology . While a

precise figure of the loss amount is difficult to ascertain due to the nature of the fraud and the

passage of time, an approximate estimate of the extent of JAMES' fraud was $202,000.

                                                                            Respectfully Submitted,




                                                                                      ~riahorne~
                                                                         U.S. Department of Justice
                                                                   10th & Constitution Avenue, NW
                                                                   Criminal Division, Fraud Section
                                                                        Bond Building - Rm. 44 18
                                                                          Washington, D.C. 20530
                                                                                    (202)-514-0840
                                                                         Facsimile: (207) 5i4-702 1

                                                                               Date:   1/I ?,,/~7
Respectfully Submitted,




                                   Date:




  -
U.S. Department of Justice
10th & Constitution Avenue, NW
Criminal Division, Fraud Section
Bond Building, Room 4418
Washington, DC 20530
202-5 14-0840
Facsimile: 202-514-7021

                                   Date:    7/1   )h3
(3hZtrles C. James
Dehdant



Kirby D. Behre
                                   Date:   S/r   ;/@J

counsel for Defendant
                                                                                              -
                                            J
A 0 245 S (Rev. 2199)(EDVA rev.1) Sheet 1 1ddgment in a Criminal Case
                                                                                         -a
                                                                                                           - -------

                               UNITED STATES DISTRICT COURT
                                   Eastern District of Virginia
                                                 Alexandria Division
UNITED STATES OF AMERICA

        v.                                                         Case Number 1:03CR00306-001

CHARLES C. JAMES,

Defendant.

                                       JUDGMENT IN A CRIMINAL CASE
        The defendant, CHARLES C. JAMES, was represented by Kirby D. Behre, Esquire.

       The defendant plead guilty to Count 1. Accordingly, the defendant is adjudged guilty of the following
count(s), involving the indicated offense(s):

                                                                                  Date Offense
Title & Section                             Nature of Offense                      Concluded      Count Number(s1
18 U.S.C. 666                     Theft from a program receiving federal funds   September 1999            1
                                  (Felony)




      As pronounced on September 26,2003 sentenced as provided in pages 2 through 7of this Judgment. The
sentence is imposed pursuant to the Sentencing Reform Act of 1984.

      IT IS FURTHER ORDERED that the defendant shall notify the United States Attorney for this district within
30 days of any change of name, residence, or mailing address until all fines, restitution, costs, and special
assessments imposed by this judgment are fully paid.

         Signed this       ? ! d a y of




Defendant's SSN:
Defendant's Date of Birth:
Defendant's address:
                                                                                   .   .
A 0 245 S (Rev. 2/99)(EDVA rev.1) Sheet 2 '-%..,hrisonment



Defendant: CHARLES C. JAMES
Case Number: 1:03CR00306-001
                                                      IMPRISONMENT

        The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned
for a term of TWELVE ( I 2) MONTHS.

         The Court makes the following recommendations to the Bureau of Prisons:
         That the defendant be designated to a Level I institution and prison camp near the Washington D.C.
         Metropolitan area, so that he may remain close to his family.

        The defendant shall surrender to the United States Marshal for this district, as directed by the Probation
Officer and the United States Marshal Service.




                                                             RETURN

         I have executed this Judgment as follows:




         Defendant delivered on                        to                                  at
                       , with a certified copy of this Judgment.

c:P.o.(2)(3)
                 d   J

   Mshl. (4) (2)
   U.S.Atty. d                                                   United States Marshal
   U.S.Coll. J
   Dft. Cnsl.                              BY
   PTS ./                                                             Deputy Marshal
   Financial d
   Registrar J
    Ob     d
A 0 245 S (Rev. 2/99)(EDVA rev.1) Sheet 3 ,.   ,pervised
                                               ,         Release



Defendant: CHARLES C. JAMES
Case Number: 1:03CR00306-001
                                                   SUPERVISED RELEASE

     Upon release from imprisonment, the defendant shall be on supervised release for a term of TWO (2)
YEARS.

The Probation Office shall provide the defendant with a copy of the standard conditions and any special conditions
of supervised release.

         The defendant shall report to the probation office in the district to which the defendant is released within
         72 hours of release from the custody of the Bureau of Prisons.

         While on supervised release, the defendant shall not commit another federal, state, or local crime.

         While on supervised release, the defendant shall not illegally possess a controlled substance.

         While on supervised release, the defendant shall not possess a firearm or destructive device.

         If this judgment imposes a fine or a restitution obligation, it shall be a condition of supervised release that
         the defendant pay any such fine or restitution in accordance with the Schedule of Payments set forth in
         the Criminal Monetary Per~altiessheet of this judgment.

                                STANDARD CONDI'TIONS OF SUPERVISED RELEASE

The defendant shall comply with the standard conditions that have been adopted by this court (set forth below):
1) The defendant shall not leave the judicial district without the permission of the court or probation officer.
2) The defendant shall report to the probation officer and shall submit a truthful and complete written report
    within the first five days of each month.
3) The defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the
    probation officer.
4) The defendant shall support his or her dependents and meet other family responsibilities.
5) The defendant shall work regularly at a lawful occupation unless excused by the probation officer for
    schooling, training, or other acceptable reasons.
6) The defendant shall notify the Probation Officer within 72 hours, or earlier if so directed, of any change in
    residence.
7) The defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute,
    or administer any narcotic or other controlled substance, or any paraphernalia related to such substances,
    except as prescribed by physician.
8) The defendant shall not frequent places where controlled substances are illegally sold, used, distributed or
    administered.
9) The defendant shall not associate with any persons engaged in criminal activity, and shall not associate with
    any person convicted of a felony unless granted permission to do so by the probation officer.
10) The defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall
    permit confiscation of any contraband observed in plain view of the probation officer.
11) The defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by
    a law enforcement officer.
12) The defendant shall not enter into any agreement to act as an informer or a special agent of a law
    enforcement agency without the permission of the court.
13) As directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned
    by the defendant's criminal record or personal history or characteristics, and shall permit the probation officer
    to make such notifications and to confirm the defendant's compliance with such notification requirement.
                                                         *palueJJeMj! 'JunouJe uo!ln)!lsaJ aql asea~au!01 uo!ga~as!p
aql seq ~aa!flouo!)eqoJd a q l 'Iln] u! p!ed s! uo!lnglsaJ Igun 'luauuos!~du!u o ~asea(aJ  j    JaUe sAep (09) UXIS
6u!uu!6aq '(OO'OSL$)stltnioa ~ l d a~y dt l a ~ INnO~ 40                                        Aed 1uepua4ap aql leql
                                                                   A I ~ I U O ~aql l e uo!lny~sa~
asealaJ pasyadns 40 uo!ypuoa lepads e aq lleqs y uaql 'Alale!pauu! p!ed IOU s! uo!lnl!lsaJ leql JuaAa aql ul ('v
                                                                                              .sluaurnaop
pue s p ~ o a a(epueuy
                ~      palsanba~11e 01 ssmae q y -laa!go
                                                  ~      uo!geqoJd aql ap!~oJdl s n u luepuajap a q l ('E
                                                                -~aa!flouo!geqoJd aql jo l e ~ o ~ d d
                                                                                                     aaue~pe
                                                                                                       e
aql lnoql!M ypa~ajo sau!l JO splea ypa~aMau Aue u!elqo JO lqap Mau Aue ~nau!lou l s n u luepuajap aq1 (-2
                                                              .~aa!youo!leqoJd aql Aq papa!p se 'luauleaJ4
pue 6u!lasunm qlleaq Ieluau jo u e ~ 6 o e
                                         ~d'alalduoa Allnjssaaans pue 'u! aled!a!pd l s n u luepuajap a q l (-1
                                                                                      :suo!ypuoa leuo!yppe
6u!~ol(o]aql q l ! Alduoa
                   ~      os(e lleqs luepuajap aql 'luau6pny s!ql 01 luens~nd'asea(aJ paspuadns uo a l ! q ~
A 0 245 S (Rev. 3/99)(EDVA rev.) Sheet 5 -    .ncial Penalties


                                                                                              Judgment--Page 5 of Z
Defendant: CHARLES C. JAMES
Case Number: 1:03CR00306-001
                                             CRlMlNAL MONETARY PENALTIES

The defendant shall pay the following total monetary penalties in accordance with the schedule of payments set
out below.


                         Count                                   Special Assessment            Fine
                           I                                                $100.00
                         Total                                              $100.00
                                                                  FINE

                    No fine has been ordered in this case, in light of defendant's significant restitution obligation.

                                                SCHEDULE OF PAYMENTS

Payments shall be applied in the following order: (1) assessment; (2) restitution; (3) fine principal; (4) cost of
prosecution; (5) interest; (6) penalties.

The special assessment is due in full immediately. If not paid immediately, the court authorizes the deduction of
appropriate sums from the defendant's account while in confinement in accordance with the applicable rules and
regulations of the Bureau of Prisons.

Any special assessment, restitution, or fine payments may be subject to penalties for default and delinquency.

If this judgment irnposes a period of imprisonment, payment of Criminal Monetary penalties shall be due during
the period of imprisonment.

All criminal monetary penalty payments are to be made to the Clerk, United States District Court, except those
payments made through the Bureau of Prisons' Inmate Financial Responsibility Program.

                The Court has determined that the defendant does not have the ability to pay interest, and it is
accordingly ordered that the interest requirement is waived.

                This fine is due and payable immediately and may be collected in accordar~cewith the Bureau
of Prisons Inmate Financial Responsibility Program.
A 0 245 S (Rev. 3/99)(EDVA rev.) Sheet 6 - Restitution and Forfeiture


                                                                                            Judgment--Page 6 of 7
Defendant: CHARLES C. JAMES
Case Number: 1:03CR00306-001
                                              RESTITUTION AND FORFEITURE

                                                           RESTITUTION

         The court, pursuant to the Victim and Witness Restitution Act, finds that the following islare victim(s) of
defendant's criminal conduct and haslhave sustained loss in the indicated amounts and orders $93,053.00
restitution by the defendant as follows:

 Name & address of ~avee(s)                                                                       Amount


 National Science Foundation, 4201 Wilson Boulevard, Arlington, Virginia 22230                    $93,053.00

                                                                                    Total         $93,053.00

         Payments of restitution are to be made to Clerk, U. S. District Court.

         Restitution is due and payable immediately.

      If there are multiple payees, any payment not made directly to a payee shall be divided proportionately
among the payees named unless otherwise specified here:



                                                           FORFEITURE
Forfeiture has not been ordered in this case.
A 0 245 S (Rev. 3/99)(EDVA rev.) Sheet 7 -'Sl~ternentof Reasons



Defendant: CHARLES C. JAMES
Case Number: 1:03CR00306-001

                                               STATEMENT OF REASONS


               The Court adopts the factual findings and guideline application in the updated presentence
               report.



[   1          The Court adopts the factual findings and guideline application in the presentence report, with the
               exception except (see attachment, if necessary).


Guideline Ranqe Determined by the Court:

               Total Offense Level: 13

               Criminal History Category: I

               Imprisonment Range: 12                to 18         months

               Supervised Release Range: 2                  to 3       years

               Fine Range: $ 3,000                  to $30.000

                      [XI Fine waived or below the guideline range in light of defendant's restitution obligation.

               Restitution: $ 93.053

                      [ ] Full restitution is not ordered for the following reason(s):

               The sentence is within the guideline range, that range does not exceed 24 months, and the Court
               finds no reason to depart from the sentence called for by the application of the guidelines.



               The sentence is within the guideline range, that range exceeds 24 months, and the sentence is
               imposed for the following reason(s):



               The sentence departs from the guideline range.

                      [ ] upon motion of the government, as a result of defendant's substantial assistance.

                      [ ] for the following reason(s):
                            NATIONAL SCIENCE FOLlNDATlON
                                 4201 WILSON BOULEVARD
                                ARLINGTON. VIRGINIA 22230




 OFFICE OF M E
DEPUTY DIRECTOR



CERTTFTETI MATT .-RETI JRN W E P T RE(21JESTED

Mr. Charles Clinton James
c/o USP Lewisburg RD#5
Lewisburg, PA 17837
Register #: 46860-083
Re: Debarment
Dear Mr. James:
On February 17,2004, the National Science Foundation (NSF) sent you a Notice of Proposed
Debarment in which NSF proposed to debar you from directly or indirectly obtaining the benefits
of Federal grants for a period of three years. The Notice sets forth in detail the circumstances
giving rise to your debarment. NSF's debarment action is based upon your conviction for
embezzlement. In that Notice, NSF provided you with thirty days to respond to the proposed
debarment.
Over thirty days have elapsed since you received the Notice and NSF has not received a response.
Accordingly, you are debarred until February 17,2007. Debarment precludes you from receiving
Federal financial and non-financial assistance and benefits under non-procurement Federal
programs and activities unless an agency head or authorized designee makes a determination to
grant an exception in accordance with 45 CFR Section 620.21 5. Non-procurement transactions
include grants, cooperative agreements, scholarships, fellowships, contracts of assistance, loans,
loan guarantees, subsidies, insurance, payments for specified use, and donation agreements.
In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
the Federal Acquisition Regulations (FAR) at 48 CFR Subpart 9.4 for the period of this
debarment. 45 CFR Section 620.1 3 O(c). During the debarment period, you may not have
supervisory responsibility, primary management, substantive control over, or critical influence on,
a grant, contract, or cooperative agreement with any agency of the Executive Branch of the Federal
Government.
If you have any questions regarding the foregoing, you may contact Lawrence Rudolph, General
Counsel, National Science Foundation, 4203 Wilson Boulevard, Room 1265, Arlington, Virginia
22230.




                     -
                              Sincerely,



                             Joseph Bordogna
                             Deputy Director
